HHS/OIG, Audit -"Review of Medicaid Disproportionate Share Hospital Payment Limits for St. Vincent Charity Hospital and St. Luke's Medical Center, Cleveland, Ohio - Ohio Department of Job and Family Services, Columbus, Ohio,"(A-05-01-00087)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Disproportionate Share Hospital Payment Limits for St. Vincent Charity Hospital and St. Luke's
Medical Center, Cleveland, Ohio - Ohio Department of Job and Family Services, Columbus, Ohio," (A-05-01-00087)
March 12, 2004
Complete
Text of Report is available in PDF format (165 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to confirm that disproportionate share hospital (DSH) payments to St.
Vincent Charity Hospital and St. Luke’s Medical Center (collectively, the Provider) during Federal fiscal year 2000 did
not exceed the DSH payment limits imposed by the Omnibus Budget Reconciliation Act of 1993.  We determined that the
Ohio Department of Job and Family Services calculated the Provider’s DSH limit according to the State plan.  However,
based on a review of selected transactions, we determined that the Provider’s Medicaid cost reports included unallowable
charges that resulted in DSH overpayments to the Provider of about $197,000 (Federal share about $115,000).  Specifically,
the cost reports included overstated amounts for unsupported charges, duplicated charges, patient bad debt charge recoveries,
charges resulting from accounting errors, inflated charges for billing adjustments, and charges for unallowable items and
services.  We
recommended that Ohio recalculate and recover the Provider’s DSH overpayments and redistribute these amounts to any hospitals
that were underpaid as a result of the overpayments.  The Ohio Department of Job and Family Services indicated that
it would work with the Provider to recalculate and recover the overpayments.